     State of Montana's Administration of
the Fire Management Assistance Grant Program
              for the Hobble Fire
                                                                                          Offce of Inspector General
                                                                                          Offce of Emergency Managemem Oversight

                                                                                          U.S. Department of Homeland Security
                                                                                          300 Frank H. Ogawa Plaza, Sle. 275
                                                                                          Oakland, California 94612



                                                                                ~~) Homeland

                                                                                ~.ij Security


                                                          September 22, 2008

                                                                  Preface

The U.S. Department of 
 Homeland Security (DHS) Office ofInspector General (OIG) was
established by the Homeland Security Act of2002 (Public Law 107-296) by amendment to
the Inspector General Act of i 978. This is one of a series of audits, inspections, and special
reports published as part of our oversight responsibilities to promote economy, effectiveness,
and efficiency within the department.

The attached report presents the results of
                                        the audit of the State of Montana's Administration
of the Fire Management Assistance Grant Program awarded by the Federal Emergency
Management Agency for the Hobble Fire. We contracted with the independent public
accounting firm of Brown & Company CP As, PLLC to perform the audit. The contract
required that Brown & Company CP As, PLLC perform its audit according to generally
accepted government auditing standards and guidance from the Robert T. Stafford Disaster
Relief and Emergency Assistance Act, Title 44 of the Code of Federal Regulations, and the
Office of Management and Budget. Brown & Company CP As, PLLC reported three areas in
which the State of          Montana's administration of                  the Fire Management Assistance Grant
Program could be improved. The report contains three recommendations addressed to the
Regional Administrator, Federal Emergency Management Agency, Region viii.

Brown & Company CP As, PLLC is responsible for the attached auditor's report dated
August 29, 2008, and the conclusions expressed in the report. The recommendations herein
have been discussed in draft with those responsible for implementation. It is our hope that
this report will result in more effective, effcient, and economical operations. We express our
appreciation to all of          those who contributed to the preparation of                this rep0l1.



                                                                              I) 1 ;. l­
                                                                     / J,"; 'fl'~;;j.L~L'
                                                                                 ~_._.. ,'" L,/v'
                                                                                            t /\ /t
                                                                    Rot~.L
                                                                    Robert J (ijsfi~ico
                                                                    Western Regional Director
                                                .i,­
                                                ..     .





IJ
                                                                                                               II

                                                                                                               1I
                                                                                                               i~
                                                            "0


                                                                                                           .
                                                                                                               11
                                                                                                               l,
                                    BROWN & COMPAN CPAs, PLLC                                                  i'
                                                                                                               i~

                                                                                                               lj
                      CERTIFIED PUBLIC ACCOUNTANTS AN MAAGEMENT CONSULTANTS                                    "




    August 29, 2008

    Western Regional Director
    Office of Emergency Management Oversight
    Office of Inspcctor Gcncral
    U.S. Department of 
          Homeland Security
    300 Frank H. Ogawa Plaza, Ste. 275
                                                                            i

    Oakland, California 946 I 2                                                                                ¡!





                                                                                                               ~;

                                                                                                               I.
    Brown & Company CPAs, PLLC performed an audit of               Montana's
                                                                 the State of 


    management of the Federal Emergency Management Agency's funds awarded under the
    Fire Management Assistance Grant Program. The audit was performed in accordance
    with our Task Order TPD-ARC-BP A-08-0001 dated 11/27/2007.

    This report presents the results of the audit and includes recommendations to help
    improve management of the audited Fire Management Assistance Grant Program.

    Our audit was conducted in accordance with applicable Government Auditing Standards,
    July 2007 revision. Although the audit report comments on costs claimed by the State of
    Montana, we did not perform a financial audit, the purpose of which would be to render
    an opinion on the State of Montana's financial statements or the funds claimed in the
    financial status reports submitted to the Federal Emergency Management Agency.

   We appreciate the opportunity to have conducted this audit. Should you have any
   questions, or if
                  we can be of 
 further assistance, please call me on (240) 492-1403.


   Sincerely,

   Brown & Company CP As, PLLC


   ¿¡~~
   Gail Jcnifer, CPA, CISA, CGFM
   Member




                 LARGO                                                          RICHMOND
   9200 BASIL COURT, SUITE 400                                       1504 SANTA ROSA ROAD, SUITE 107
         LARGO, MD 20774                                                    RICHMOND, VA 23229
 (240) 492-1400. FAX: (301) 636-6013
                                (804) 288-2006. FAX i80.i) 288-2233
       mail (iibrownco-cpas.com                                              tdavjs¡¡~brownco-cpas. com
Table of Contents/Abbreviations
                                                                                                                                                                  i
                                                                                                                                                                  !


Executive Summary.......... ........ .......... .............. ..... ................ ..... ...... .......... ..... ...... .......... ..... .............. i


Background..................................................................................... .......................... ........................... 2'


Results of Audit......... ............ ................ .............,..... .......... ........... ...... .......... ........... .............. ............. 3

     Support for Costs Claimed on a Project Worksheet ....................................................................... 3
     FMAG Program Administration ........... .... ........ .........'.. ................... .............. ...... ............................ 4
     Compliance with FMAG Program Requirements ...................... .................................................... 5

Appendices

     Appendix A: Objectives, Scope, and Methodology....................................................................... 7

Abbreviations'

     CFR                     Code of 
    Federal Regulations
     DHS                     U.S. Department of     Homeland Security

     DMA/DES                Department of 
Military Affairs/Disaster & Emergency Services Division

     DNRC                   Department of  Natural Resources and Conservation

     FEMA                   Federal Emergency Management Agency

     FMAG                   Fire Management Assistance Grant

     GAR                    Govemor's Authorized Representative

     OIG                    Office of Inspector General

     USFS                   United States Forest Service

                                                                                                           il
                                                                                                           ~"




                                                                                                           II
                                                                                                           J
                                                                                                           11

Executive Summary                                                                                          !'I
                                                                                                             ,
                                                                                                             i
                                                                                                             ;
                                                                                                             1
                                                                                                             j
                                                                                                            :j
             Brown & Company CPAs, PLLC audited the 
                       Montana's (the state's)
                                                                      State of 


             administration ofthe Fire Management Assistance Grant (FMAG) Program
             for the Hobble Fire (FMAG Declaration 24,88). The objective of            the audit was
             to determine whether the state administered the FMAG Program in an
             effcient and effective manner. To accomplish the objective, we considered
             the overall impact of 
         material deficiencies on grant program administration.
             Specifically, we determined how well the state (1) coordinated and
             communicated with Federal Emergency Management Agency (FEMA) and
             subgrant applicants, (2) ensured compliance with federal laws and FEMA
             guidelines, and (3) accounted for and expended FMAG Program funds. See
             Appendix A for additional details on the objectives, scope, and methodology
             of this audit.



             On August i 1,2003, FEMA Region VII awarded $2,548,114 under FMAG
             Declaration 2488 to the Montana Department of  Natural Resources and
             Conservation (DNRC). FEMA programmatically closed this declaration on
             July 24, 2006. Although the audit scope included a review of costs
             reimbursed under the grant, a financial audit of           those costs was not perforn1ed.

             Accordingly, we do not express an opinion on the state's financial statements
             or the funds claimed in the financial status reports submitted to FEMA.

             DNRC administered the FMAG Program effectively and efficiently but did
             not always comply with federal laws and FEMA guidelines. Specifically, the
             state: (I) claimed reimbursement for $6,619 in unsupported costs, (2) did not
             have written FMAG policy and procedures for grant application, financial
             management, and financial reporting requirements, and (3) did not record all
             costs identifiable with a specific incident to that incident's organization code
             in the state's financial management system.

             We recommend that the Regional Administrator, FEMA Region VLI:
             (1) disallow the $6,919 in unsupported costs, (2) work with the state to
             develop and issue complete written procedures for the FMAG Program, and
             (3) require the state to comply with the financial administration requirements
             of federal regulations and the state's own accounting policies and procedures.

            We held exit conferences with FEMA Region VIL and the DNRC on
            March 7, 2008 and May 1,2008, respectively. FEMA and the DNRC verbally
            concurred with our findings and recommendations but subsequently reserved
            their right to formally respond in writing once the final report is issued. A
            synopsis of  the verbal comments we received is included in the Results of
            Audit section of this report.




  St:ite of Montana's Administr:ition of the Fire Management Assistance Grant Program
                                           for the Hobble "ire



                                                  Page i
Background                                                                                                               j
                                                                                                                          I

                                                                                                                        I::1

                                                                                                                        11,
                          The Robert T. Stafford Disaster Relief and Emergency Assistance Act,                          ¡j

                          (Stafford Act), signed into law November 23, 1988,  authorizes the President
                          to provide federal funds to state and local governments under the FMAG
                          Program for mitigation, management, and control of any fire burning on public
                          or private forestland or grassland. The FMAG Program replaced the Fire
                          Suppression Assistance Program on October 30,2001. Title 44, Code of

                          Federal Regulations (44 CFR), Part 204 provides the procedures for the
                          declaration and grants management processes for the FMAG Program and
                          details applicant eligibility and the eligibility of costs to be considered under
                          the program.

                          Declaration Process



                          A declaration request must be submitted while a fire is burnìng uncontrolled
                          and threatens such destruction as would constitute a major disaster. The
                          Governor or the Governor's Authorized Representative (GAR) is authorized to
                          submit requests to the FEMA Regional Administrator or Regional Fire Duty
                          Liaison for fire management declarations. Due to the magnitude and impact of
                          a fire, the Governor or GAR can expedite the process by verbally requesting
                          the declaration but must follow-up promptly after the date of an initial
                          telephone request with all official forms and written information

                          Upon declaration approval by FEMA, the Governor or GAR wil enter into a
                          standing FEMAlState Agreement (the Agreement) for the declared fire and for
                          future declared fires in that calendar year. 

                                                                                i The state must have a cunent and
                          signed Agreement before receiving federal funding under the FMAG
                          Program. The Agreement states the understandings, commitments, and
                          conditions under which FEMA will provide federal assistance, including the
                          75% federal and 25% non-federal cost share provision and articles of agreement
                          necessary for the administration of 
          the grants. The Agreement must identify
                          the state Legislative authority for firefighting, as well as the state's compliance
                          with the laws, regulations, and other provisions applicable to the FMAG
                          Program.

                          Grant Application and Reimbursement Process

                          Following a declaration, the state is required to submit a grant application
                          package to the FEMA Regional Administrator within 9 months of the
                          declaration. The Regional Administrator may grant an extension of              up to
                          3 months upon receipt of a written request from the state that includes the
i The Stale of Montana executes the Agreement with FEMA al the beginning of each calendar year so ihal ihe
Agreement is in place before the start of ilie fire season. An amendment to the Agreement (Exhibit E) is executed for
each FMAG declaration occurring during the year.

              State of Monlana's Administration of the Fire Maiiagemt'nt Assistance Grant Program
                                                        for the Hobbll' Fin'



                                                                Page 2

                   justification for an extension. The grantee must document the total eligible
                   costs for a declared fire on Project Worksheets, which are submitted with the
                   grant application. The Regional Administrator has 45 days from the receipt of
                   the state's initial grant application, or an amendment to the state's grant
                   application, to approve or deny the application package or amendment, or to
                   notify the state of a delay.

                   By submitting Project Worksheets, the grantee certifies that all reported costs
                   were incurred for work that was performed in compliance with laws, federal
                   regulations and FMAG Program policy and guidance, as well as the terms and
                   conditions outlined in the FMAG Program FEMA/State Agreement. Upon
                   approval of 
 the grant application, FEMA obligates funds after determining
                   that: (l) the state's eligible costs meet or exceed the individual or cumulative
                   fire cost thresholds; and (2) the state has up-to-date State Administrative and
                   Hazard Mitigation Plans approved by the Regional Administrator.
                                                                                                      i

                   Subgrantee requests for FMAG Program funding are submitted on a Request            ;

                   for Fire Management Assistance Subgrant (FEMA Fonn 90- i 33) to the grantee        ! '


                   according to state procedures and within timelines set by the grantee. This

                   requcst must be submitted not longer than 30 days after the close of the

                   incident period. The grantee will review and forward the request to the

                   Regional Administrator for final review and determination.


Results of Audit

                   DNRC administered the FMAG program in an efficient and effective manner.
                   DNRC properly coordinated and communicated with FEMA and subgrantees.
                   However, DNRC did not properly accountfor $6,619 of the $2,548,114 in
                   FMAG Program expenditures and did not always comply with federal laws and
                   FEMA guidelines. The following exceptions were noted.

     Support for Costs Claimed on a Project Worksheet

                  DNRC c1aimed reimbursement for $6,9 i 9 in unsupported costs on a Project
                  Worksheet for work that was invoiced by the United Stales Forest Service
                  (USFS). DNRC reimbursed the USFS without obtaining and reviewing.
                  supporting documentation. According to 44 CFR 204.3, the Project
                  Worksheet identifies actual costs incurred by eligible applicants as a result of
                  firetighting activities. Section 204.53 states that by submitting an applicant's
                  Project Worksheet, the grantee is certifying that all costs reported were
                  incurred for work that was perfonned according to FEMA laws, regulations,
                  policy. and guidance applicable to the FMAG Program.




        State of Monian:ls Administration of the Fire Management Assistance Grant Program
                                        for the Hobble Fire



                                             Page 3

      Recommendation
                                                                                                  I:
              We recommend that the Regional Administrator, FEMA Region VII:                      I,

                                                                                                  111
                                                                                                  I:!
              Recommendation #1. Disallow the $6,919 for unsupported costs claimed for            I:
              reimbursements made to USFS.

      Management Comments                                                                         Ii
                                                                                                  H
                                                                                                  ~,

              During fieldwork exit conferences, FEMA and state offcials verbally agreed
              to the findings presented. Since these findings were not in writing or in a draft
              report, these officials subsequently reserved their right to comment at a later
              date. Once the final report is issued to FEMA Region VJI, state officials wil       l,
                                                                                                  i'
              have an opportunity to provide input to the Region and the Region wil submit        f~
                                                                                                  ;j
              written comments to the OIG. Therefore, at this time, FEMA and state                ¡:
                                                                                                  i
              offcials neither concur nor non-concur with the finding and recommendation.         ¡!




FMAG Program Administration

             DNRC and the Department of Military Affairs/Disaster & Emergency
             Services Division (DMA/DES) could benefit from having written procedures
             for grant application, financial management, and financial reporting
             requirements for the FMAG Program. Written procedures would help ensure
             that the specific requirements of 44 CFR 204 regarding FMAG declaration,
              application, and grant administration processes are effciently and effectively

             accomplished. Without these procedures, internal controls are not in place to
             ensure that all required actions are consistently and correctly applied in
             administering the FMAG Program. As a condition of 
     receiving federal
             awards, non-federal entities agree to comply with applicable laws, regulations,
             and the provisions of contract and grant agreements, and to maintain'internal
             controls to provide reasonable assurance of compliance with these
             requirements.

     Recommendation
             We recommend that the Regional Administrator, FEMA Region VIJ:

             Recommendation #2. Work with the state to develop written policy and
             procedures for grant application, financial management, and financial
             reporting requirements processes.




   State of Montana's Administration of the Fire Management Assistance Grant Program
                                   for the Hobble Fire



                                         Page 4

                                                                                                  r
                                                                                                  i




      Management Comments

              During fieldwork exit conferences, FEMA and state officials verbally agreed
              to the findings presented. Since these findings were not in writing or in a draft
              report, these offcials subsequently reserved their right to' comment at a later
              date. Once the final report is issued to FEMA Region VlI, state officials will
              have an opportunity to provide input to the Region and the Region will submit
              written comments to the OIG. Therefore, at this time, FEMA and state
              officials neither concur nor non-concur with the finding and recommendation.


Compliance withFMAG Program Requirements

             DNRC did not fully comply with grant accounting policies requirements.
             These requirements are established within the regulatory guidance referenced
             in the FMAG agreement between FEMA and the state. Specifically, DNRC
             did not comply with 44 CFR i 3.20'standards for financial management
             systems. DNRC records identified FMAG fire costs to general organization
             codes that included costs for more than one fire.

             USFS submitted an invoice for $25,639,418 to DNRC for emergency fire
             suppression support costs for the year 2003. The USFS invoice represented
             charges for several fires in Montana in 2003 of 
 which $ i, 156,875 was
             allocated to FMAG Hobble Fire, DNRC paid the total invoice and recorded
             the total amount in the financial reporting system under general organization
             code 5 i 999 that accumul ates costs for several fires, instead of recording the
             $ 1,156,875 to the fire specific organization code 89008 for FMAG Hobble
             Fire.

             DNRC recorded amounts invoiced by USFS for fire suppression costs in a
             general organization code, even when costs for specific tires can be recorded.
             However, according to 44 CFR i 3.20(a)( 1 )-(2), "A State must expend and
             account for grant funds in accordance with State laws and procedures for
             expending and accounting for its own funds. Fiscal control and accounting
             procedures of the State... must be suffcient to - (1) Permit preparation of

             reports... , and (2) Permit the tracing of funds to a level of expenditures
            adequate to establish that such funds have not been used in violation of the
            restrictions and prohibitions of applicable statutes." The Montana Operations
            Manual Volume II, Chapter 8300 states, "... that in all instances, agencies are
            required to maintain appropriate accounting records to support expenses
            caused by disaster situations. These files are used by the lead agency to
            request reimbursement following the prescribed procedures." By recording
            costs that can be assigned to an identifiable incident to a general organization
            code used for multiple fires, DNRC cannot easily prepare a detailed
            transaction report that lists all FMAG Hobble Fire costs.


  State of Montana's Administration of tbe Fire Management Assistance Grant Program
                                  for tbe Hobble Fire



                                        Page 5

                                                                                               'i
                                                                                               II
                                                                                               j,
                                                                                               1:;
                                                                                               :-1
                                                                                               II
                                                                                               i -~
                                                                                                    I

                                                                                                j
                                                                                                 i
                                                                                                 ,

   Recommendation
            We recommend that the ReEional Administrator, FEMA Region VII:

            Recommendation #3. Require the stateto comply with the financial                   :"¡
                                                                                               i:
           administration requirements as required by federal regulations and state
           accounting policy and procedures.



   Management Comments

           During fieldwork exit conferences, FEMA and state officials verbally agreed
           to the findings presented. Since these findings were not in writing or in a draft
           report, these officials subsequently reserved their right to comment at a later
           date. Once the final report is issued to FEMA Region VII, state officials wil
           have an opportunity to provide input to the Region and the Region will submit
           written comments to the OIG. Therefore, at this time, FEMA and state
           officials neither concur nor non-concur with the finding and recommendation.




Statl of Montana's Administration of the Fire ManaglßJlnt Assistance Grant Program
                                for the Hobble Fire



                                      Page 6

 Appendix A

 Objectives, Scope, and Methodology
                                                                                    I

                                                                                                                        I:


                               Objectives                                                                               I:

                                                                                                                        !1

                              The objective of          the audit was to determine whether the state administered the   :1
                                                                                                                        Ii
                              FMAG Program in an efficient and effective manner. To accomplish the                      I:
                              objective, we considered the overall impact of 
      material deficiencies on grant      I~
                              program administration. Specifically, we determined how well the state                    Ii

                              (1) coordinated and communicated with FEMA and subgrant applicants,                       q
                              (2) ensured compliance with federal laws and FEMA guidelines, and
                              (3) accounted for and expended FMAG Program funds.

                              We were not engaged to and did not perform a financial statement audit, the
                              objective of 
     which would be to express an opinion on specified elements,
                              accounts, or items. Accordingly, we were neither required to nor expressed an
                              opinion on the costs claimed for the grant programs included in the scope of
                              the audit. Had we been required and perfom1ed additional procedures or
                              conducted an audit of 
    the financial statements according to generally accepted
                              auditing standards, other matters might have come to our attention that would
                              have been reported. This report relates only to the programs specified and
                              does not extend to any financial statements of the state.

                              Scope

                             We audited Hobble Fire (FMAG Declaration 2488) that was awarded by
                             FEMA to the state on August II, 2003. The grant, totaling $2,548,1 13.66,
                             was programmatically closed on July 24,2006.2 This FEMA grant award was
                             selected for review because the award was significantly higher than other fire
                             declarations within the same FEMA Region. DNRC administered the FMAG
                             Program. DNRC subgrantees included DMAIDES, and Sweetgrass and
                             Stillwater Counties.

                             Methodology

                             We perfoimed fieldwork at FEMA Region VIJ, DNRC, and DMAIDES. To
                             obtain an understanding of 
       the grant procedures, we reviewed FEMA
                             regulations, the Stafford Act as amended, pertinent sections of Title 44 of the
                             CFR, and Office of 
         Management and Budget Circular A-87, Cost Principles
                            for State, Local, and Indian Tribal Governments.

                             To achieve the objective of 
            this audit, we:




2 FMAG Programs are considered prograinmaiically closed if all work has been completed and final costs submitted to
FEMA have been obligaied.

              Staie of Montana's Administration of 
            the Fire Managemenl Assistance Grant Program
                                                             for the Hobble Fire



                                                                   Page 7

Appendix A
Objectives, Scope, and Methodology

                      1) Interviewed FEMA, state, and subgrantee personnel to obtain an

                          understanding of policies and procedures followed and to identify

                          potential internal control weaknesses and their causes;


                      2) Reviewed grant fies to determine whether sufficient documentation was

                          present to support proper administration of the grant;


                      3) Reviewed the state's internal controls over accounting for grants to ensure

                          that the State properly recorded and reported grant expenditures;


                      4) Reviewed a statistical sample of project worksheets to determine whether grant
                          monies were spent according to laws and regulations. We used appropriate
                          formulas to develop a variable sampling approach coupled with the risk model
                          promulgated by the American Institute of Certified Public Accountants.

                      5) Reviewed prior audit reports to determine whether deficiencies had been noted
                          in the reports with respect to the state's administration of 
 the FMAG Program or
                          internal controls over grant fund accounting.

                     We conducted a performance audit by executing tests, conducting interviews,
                     making observations and perfonned examinations in the following areas:

                     i. Applicant Eligibility

                     2. Cost Eligibility

                     3. Procurement

                     4. Grantee's Accounting System and Intemal Controls

                     5. Project Worksheet Review

                     6. Grant Reporting


                     We conducted our on-site fieldwork between February i 1-15,2008 and
                     March 4-7, 2008 and performed our work according to the Government
                     Auditing Standards prescribed by the Comptroller General of 
      the United
                     States (July 2007 Revision).




          State of Montana's Administration of the Fire Management Assistance Graiit Program
                                                   for the Hobble Fire



                                                           Page 8

                                                                                               ¡",
                                                                                               l~




                                                                                               I:
                                                                                               .:
                                                                                               !

                                                                                               i




                                                                                               I


                                                                                               i.
                                                                                               I:

                                                                                               f'
                                                                                               r~
Additional Information and Copies                                                              r~
                                                                                               I:

                                                                                               f
To obtain additional copies of 
   this report, call the Office ofInspector General (OIG) at
                                                                                               i
(202) 254-4 I 99, fax your request to (202) 254-4305, or visit the OIG web site at
www.dhs.gov/oig.                                                                               I


                                                                                               i
                                                                                               ¡
                                                                                               i

OIG Hotlne
To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to depai1ment programs or operations:

      · Call our Hotline at 1-800-323-8603;

      · Fax the complaint directly to us at (202) 254-4292;

      · Email us at DHSOiGHOTLINE~dhs.gov; or

      · Write to us at:

               DHS Office of Inspector General/MAIL STOP 2600, Attention:
               Office of Investigations - Hotline, 245 MUlTay Drive, S W, Building 4 i 0,
               Washington, DC 20528.

The OIG seeks to protect the identity of each wiiter and caller.
